September 29, 2000

KENNETH C. WEAVER
CHIEF POSTAL INSPECTOR

SUBJECT:	 Audit of the Postal Inspection Service Disciplinary Process for
          Nonbargaining Employees (Report Number OV-AR-00-004)

This report presents the results of our audit of the Postal Inspection Service Disciplinary
Process for Nonbargaining Employees (Project Number 99CR001OV000). Our
objective was to determine if disciplinary measures were timely and consistently applied
throughout the Inspection Service. This audit was conducted as a follow-on to a prior
review of disciplinary issues requested by the Chairman, House Subcommittee on
Postal Operations, and was included in our fiscal year 1999 audit workload plan.

The audit revealed that the Inspection Service disciplinary process for nonbargaining
employees could be improved. Specifically, internal investigations were conducted by
field inspectors from the same divisions as the individuals being investigated; potential
violations of the Inspection Service Code of Conduct were not always reported to the
Office of Inspections as required; and we could not document the extent of Office of
Inspections oversight of internal investigations assigned to field inspectors.

Management provided comments to the report and generally agreed with our
recommendations. Management’s comments and our evaluation of these comments
are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Cathleen Berrick, director, Oversight, or me
at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment
cc: James K. Belz
    John R. Gunnels
Postal Inspection Service Disciplinary Process                          OV-AR-00-004
 for Nonbargaining Employees




                                    TABLE OF CONTENTS 

Executive Summary                                                              i


Part I 


Introduction                                                                  1


    Background                                                                1
    Objective, Scope, and Methodology                                         3


Part II

Audit Results 	                                                               5


    Disciplinary Process for Nonbargaining Employees                          5

    Recommendations                                                           9
    Management’s Comments                                                     9

    Evaluation of Management’s Comments                                       9


Appendix A.	 Internal Investigations Closed During FY 1999 by Type of        13 

             Allegation and Final Disposition 


Appendix B.	 Management’s Comments                                           14 

Postal Inspection Service Disciplinary Process                                       OV-AR-00-004
 for Nonbargaining Employees


                                   EXECUTIVE SUMMARY
Introduction                   This report presents the results of our review of the
                               Inspection Service disciplinary process for nonbargaining
                               employees. Our objective was to determine if disciplinary
                               measures were timely and consistently applied throughout
                               the Inspection Service. Specifically, we determined if
                               investigations of disciplinary issues for nonbargaining
                               employees were independently conducted, supported the
                               proposed action, and received adequate management
                               oversight. This audit was conducted as a follow on to a
                               prior review of disciplinary issues requested by the
                               Chairman, House Subcommittee on Postal Operations, and
                               was included in our fiscal year 1999 audit workload plan.

Results in Brief               The audit revealed that the Inspection Service disciplinary
                               process for nonbargaining employees could be improved.
                               Specifically, internal investigations were conducted by field
                               inspectors from the same divisions, and in one case the
                               same domicile, as the individual being investigated. In
                               addition, potential violations of the Inspection Service Code
                               of Conduct were not always reported to the Office of
                               Inspections as required, resulting in similar allegations
                               being handled as internal investigations and at the division
                               level. Further, although oversight provided by headquarters
                               management helped ensure the timely disposition of
                               disciplinary measures, we could not document the extent of
                               Office of Inspections oversight of internal investigations
                               assigned to field inspectors. As a result, there is an
                               increased risk that the Inspection Service disciplinary
                               process may be perceived as not being independent, fair,
                               and consistently administered.

Summary of                     We recommend that the chief postal inspector direct the
Recommendations                Office of Inspections to conduct all internal investigations
                               and, if necessary, assign internal investigations involving
                               less serious offenses to field inspectors from different
                               divisions than the subjects being investigated. We further
                               recommend that the chief postal inspector establish controls
                               to ensure that all potential violations of the Code of Conduct
                               are reported to the Office of Inspections as required; direct
                               the Office of Inspections to conduct internal investigations
                               of all allegations of potentially serious violations of the Code




                                                  i
Postal Inspection Service Disciplinary Process                                      OV-AR-00-004
 for Nonbargaining Employees


                               of Conduct; and direct the Office of Inspections to maintain
                               and document oversight of internal investigations assigned
                               to field inspectors.

Management’s 	                 The deputy chief inspector, Professional Standards and
Comments 	                     Resource Development, generally agreed with the
                               recommendations and identified the following corrective
                               actions.

                               •	 Beginning in fiscal year 2001, the Office of Inspections
                                  will conduct all serious internal investigations for
                                  nonbargaining employees.

                               •	 Guidance will be issued to managers reinforcing the
                                  importance of the Code of Conduct and the obligation to
                                  promptly report all potential violations to the Office of
                                  Inspections.

                               •	 The Office of Inspections will conduct internal
                                  investigations of all allegations of potentially serious
                                  violations of the Inspection Service Code of Conduct.

                               •	 The Office of Inspections will facilitate the issuance of a
                                  policy update clarifying their oversight of internal
                                  investigations assigned to the field.

                               The deputy chief inspector further identified that there was
                               no correlation between the audit objectives and a review of
                               the internal investigative process.

                               Management’s comments, in their entirety, are included in
                               Appendix B of this report.




                                                 ii
Postal Inspection Service Disciplinary Process                                        OV-AR-00-004
 for Nonbargaining Employees


Overall Evaluation of          Management’s comments are responsive to the
Management’s                   recommendations. We believe that the corrective actions
Comments                       identified by management will strengthen the disciplinary
                               process by ensuring that internal investigations are
                               independently and consistently conducted. However, we
                               disagree that there is not a correlation between the audit
                               objectives and a review of the internal investigative process.
                               As identified in the report, this audit was conducted as a
                               follow-on review to an Office of Inspector General (OIG)
                               report that identified deficiencies in the internal investigative
                               process.




                                                  iii
Postal Inspection Service Disciplinary Process                                    OV-AR-00-004
 for Nonbargaining Employees


                                        INTRODUCTION
Background 	                   The Inspection Service disciplinary process consists of an
                               allegation of misconduct, an investigation of the
                               misconduct by headquarters or division personnel, and an
                               adjudication of the issue by a deciding official at a
                               supervisory position at least two levels above the
                               individual being investigated. The disciplinary process for
                               nonbargaining employees relates to the allegation,
                               investigation, and adjudication of actions by employees
                               not covered by collective bargaining agreements. The
                               Inspection Service disciplinary process for nonbargaining
                               employees is consistent with the Postal Service
                               disciplinary process.

Criteria	                      The Postal Service Employee and Labor Relations Manual,
                               Chapter 650, “Nonbargaining Disciplinary, Grievance, and
                               Appeal Procedures,” December 1999, governs the
                               disciplinary process for nonbargaining employees within the
                               Inspection Service. Specifically, the Employee and Labor
                               Relations Manual establishes procedures for (a) disciplinary
                               action against nonprobationary employees who are not
                               subject to the provisions of a collective bargaining
                               agreement, and (b) emergency action for conduct that also
                               normally warrants disciplinary action.

                               The Inspection Service Manual, July 30, 1999, identifies
                               guidelines for conducting internal investigations of
                               Inspection Service employees and identifies the Inspection
                               Service Code of Conduct. Specifically, the manual
                               identifies the Office of Inspections as having primary
                               responsibility for investigating allegations of misconduct
                               within the Inspection Service. The manual further identifies
                               reporting requirements for alleged infractions and requires
                               that Inspection Service management report potential
                               violations of the Inspection Service Code of Conduct to the
                               Office of Inspections. Finally, the manual identifies the
                               14 Code of Conduct standards that emphasize conduct that
                               impacts the efficient operation of the Inspection Service.
                               These standards include such categories as integrity,
                               personal responsibility, misuse of government property, and
                               conduct and deportment.




                                                 1
Postal Inspection Service Disciplinary Process                                                       OV-AR-00-004
 for Nonbargaining Employees



Disciplinary Process 	           Disciplinary issues are investigated by the Office of
                                 Inspections or at the division level. Investigations
                                 conducted by the Office of Inspections are referred to as
                                 H-cases, or internal investigations. Internal investigations
                                 are conducted when there are allegations of employee
                                 misconduct which affect the performance of duties or
                                 when managers have information of employee
                                 misconduct. The Office of Inspections generally conducts
                                 internal investigations but may assign investigations to
                                 field inspectors depending on the volume and seriousness
                                 of the allegations. Investigations conducted at the division
                                 level generally involve less serious allegations that do not
                                 affect the performance of duties, such as loss of
                                 accountable property. However, division management is
                                 required to notify the Office of Inspections of all potential
                                 violations of the Inspection Service Code of Conduct.

                                 Investigations of disciplinary issues begin with an initial fact-
                                 finding phase and are followed by the subject’s supervisor
                                 addressing the allegation in writing and proposing a
                                 disciplinary action, if deemed warranted. The subject is
                                 given an opportunity to review and comment on the
                                 proposed disciplinary action. The deciding official, who
                                 must be at least one level higher than the proposing official,
                                 makes the final determination on the disciplinary action and
                                 issues a letter of decision to the subject. Appeals may be
                                 elevated to the chief postal inspector, the chief postal
                                 inspector’s designee, or the Merit Systems Protection Board
                                 depending on the severity of the disciplinary action and the
                                 employee’s eligibility. Disciplinary issues are resolved
                                 through exoneration, adverse actions,1 nonadverse
                                 actions2, appeals, or by settlement agreements which have
                                 nondisclosure requirements.




1
  Adverse actions include discharges, suspensions of more than 14 days, furloughs without pay, and reductions in
grade or pay.
2
  Nonadverse actions primarily include letters of warning and letters of warning in lieu of time-off suspensions.




                                                         2
Postal Inspection Service Disciplinary Process                                                      OV-AR-00-004
 for Nonbargaining Employees



Objective, Scope, and            Our overall objective was to determine if disciplinary
Methodology                      measures were timely and consistently applied throughout
                                 the Inspection Service. Specifically, we determined if
                                 investigations of disciplinary issues for nonbargaining
                                 employees were independently conducted, supported the
                                 proposed action, and received adequate management
                                 oversight.3 These objectives were formulated to address
                                 observations contained in the Office of Inspector General
                                 (OIG) Management Advisory Report, Handling of Internal
                                 Affairs Case, Report Number OV-MA-98-001, March 1998.

                                 To accomplish our objectives, we reviewed all 304 internal
                                 investigations that were closed during fiscal year (FY) 1999.
                                 Specifically, we reviewed investigative case files, letters of
                                 decision, investigative briefs and memorandums, and the
                                 subjects’ responses, if any, to the allegations. We also
                                 randomly selected and reviewed 1,469 official personnel
                                 files to evaluate nonadverse disciplinary actions, primarily
                                 resulting in letters of warning of various types, maintained at
                                 Operations Support Group offices. We also reviewed all
                                 22 disciplinary actions maintained in a suspense file5 at an
                                 Operations Support Group office. Appendix A summarizes
                                 the allegations and final disposition of the 30 internal
                                 investigations closed during FY 1999.

                                 We interviewed Inspection Service headquarters, Office of
                                 Inspections, and Human Resources officials concerning the
                                 Inspection Service disciplinary process. We also
                                 interviewed officials from Postal Service Human Resources
                                 and the Federal Bureau of Investigation; Secret Service;




3
  We did not review the disciplinary process for personnel covered under the collective bargaining agreement, whose
disciplinary process is governed by the terms of individual union contracts; executives whose disciplinary
investigations are conducted by the OIG; disciplinary issues handled through counseling; and disciplinary issues
related to poor job performance, which are not investigated by the Office of Inspections.
4
  These 30 cases involved 35 Inspection Service nonbargaining employees. One of the 35 employees was
investigated twice.
5
  This suspense file consisted of copies of all valid and unexpired disciplinary actions sorted by the dates these
actions were scheduled to be expunged from the official personnel folders of each recipient.




                                                        3
Postal Inspection Service Disciplinary Process                                                       OV-AR-00-004
 for Nonbargaining Employees



                                 and Bureau of Alcohol, Tobacco, and Firearms, concerning
                                 Inspection Service and agency disciplinary policies and
                                 procedures.6

                                 We conducted the audit from January 2000 through
                                 September 2000 in accordance with generally accepted
                                 government auditing standards. We reviewed
                                 management controls over the disciplinary process as they
                                 related to the audit objectives. We discussed our
                                 conclusions and observations with management officials
                                 and included their comments where appropriate.




6
 We interviewed former and current officials from the Federal Bureau of Investigation; Secret Service; and Bureau of
Alcohol, Tobacco, and Firearms. Information obtained was self-reported and was not independently verified.




                                                         4
Postal Inspection Service Disciplinary Process                                     OV-AR-00-004
 for Nonbargaining Employees


                                        AUDIT RESULTS
Disciplinary Process           The Inspection Service disciplinary process for
for NonBargaining              nonbargaining employees could be improved. Specifically,
Employees                      internal investigations were conducted by field inspectors
                               from the same divisions, and in one case the same
                               domicile, as the individual being investigated. In addition,
                               potential violations of the Inspection Service Code of
                               Conduct were not always reported to the Office of
                               Inspections as required, resulting in similar allegations
                               being handled as internal investigations and at the division
                               level. Further, although oversight provided by headquarters
                               management helped ensure the timely disposition of
                               disciplinary measures, we could not document the extent of
                               Office of Inspections oversight of internal investigations
                               assigned to field inspectors.

                               These conditions occurred because the inspector in charge
                               or assistant inspector in charge of the individual being
                               investigated were involved in the selection of the field
                               investigating inspectors. In addition, requirements to notify
                               the Office of Inspections of all potential violations of the
                               Inspection Service Code of Conduct were not enforced by
                               the Office of Inspections and headquarters management.
                               Further, potential violations of the Inspection Service Code
                               of Conduct were not required to be reviewed as internal
                               investigations. Finally, Office of Inspections personnel did
                               not consistently and thoroughly document oversight
                               provided by internal investigations assigned to field
                               inspectors in case files. As a result, there is an increased
                               risk that the Inspection Service disciplinary process may be
                               perceived as not being independent, fair, and consistently
                               administered.

Independence of                Internal Investigations were conducted by field inspectors
Investigations                 from the same divisions, and in one case the same
                               domicile, as the individual being investigated. Specifically,
                               five of the eight internal investigations conducted by field
                               inspectors were investigated by inspectors from the same
                               division as the individual being investigated. In addition,
                               one of the internal investigations was conducted by an
                               inspector who was from the same domicile as the individual
                               investigated. We further found that in one instance, the
                               investigating official was selected not only from the same
                               division as the individual being investigated, but was one of




                                                 5
Postal Inspection Service Disciplinary Process                                        OV-AR-00-004
 for Nonbargaining Employees


                               the individual’s two assistant inspectors in charge. In
                               another instance, the investigating official and the individual
                               being investigated were members of the same team.

                               The inspector in charge or assistant inspector in charge of
                               the individual being investigated were involved in the
                               selection of the field investigating inspectors. According to
                               the inspector in charge, Office of Inspections, the selection
                               of the field investigating officer is normally the result of a
                               joint decision between the subject’s inspector in charge or
                               assistant inspector in charge and the inspector in charge,
                               Office of Inspections. We believe that this process could
                               result in the appearance of a lack of independence.
                               Specifically, the subject’s inspector in charge or assistant
                               inspector in charge is normally the deciding official for both
                               adverse and nonadverse disciplinary actions. If the
                               inspector in charge or assistant inspector in charge were
                               also the nominating official for the field investigating officer,
                               it may appear that the inspector in charge or assistant
                               inspector in charge is not independent from the process.

                               We reviewed the disciplinary processes of the Federal
                               Bureau of Investigation; Secret Service; and Bureau of
                               Alcohol, Tobacco, and Firearms, and compared them to the
                               Inspection Service’s disciplinary process. We determined
                               that only one of the three agencies allowed internal
                               investigations to be conducted by personnel within the
                               same reporting chain as the subject being investigated.
                               The remaining two agencies conducted all internal affairs
                               investigations from a central headquarters office.

Case Notification and          Potential violations of the Inspection Service Code of
Selection                      Conduct were not always reported to the Office of
                               Inspections as required. As a result, similar allegations
                               involving potential violations of the Inspection Service Code
                               of Conduct were handled as internal investigations and at
                               the division level. From our sample of 1,469 personnel
                               files, we identified seven disciplinary action cases that were
                               within the audit scope and were not the result of internal
                               investigations. Two additional cases were identified from
                               the 22 suspense files, for a total of nine cases reviewed
                               during this audit. Of these nine cases reviewed, five cases
                               involved potential violations of the Inspection Service
                               Code of Conduct that, at a minimum, should have been
                               reported to the Office of Inspections as required. These




                                                  6
Postal Inspection Service Disciplinary Process                                       OV-AR-00-004
 for Nonbargaining Employees


                               potential violations included misuse of government property,
                               falsification or misrepresentation, and sexual harassment.

                               Requirements to notify the Office of Inspections of all
                               potential violations of the Inspection Service Code of
                               Conduct were not enforced by headquarters management.
                               Specifically, there is no separate directive to the divisions
                               which reinforced the requirement to report all potential
                               violations of the Inspection Service Code of Conduct.
                               Reporting potential violations of the Inspection Service
                               Code of Conduct to the Office of Inspections will help
                               ensure that serious allegations receive the amount of
                               review and headquarters oversight needed.

                               Since the Office of Inspections does not track investigations
                               of disciplinary issues conducted by division officials, we
                               could not determine the extent of similar allegations being
                               handled as both internal investigations and at the division
                               level due to a failure to report the incident to the Office of
                               Inspections. However, based on our review of 30 internal
                               investigations and nine disciplinary actions at the division
                               level, we determined that three potentially serious violations
                               of the Code of Conduct were not reported to the Office of
                               Inspections and, as a result, were investigated at the
                               division level.

                               One of the three potentially serious violations involved the
                               misuse of a government vehicle. Specifically, we identified
                               that an individual was issued a letter of warning for failing to
                               properly safeguard and secure government property, which
                               is not an element of the Code of Conduct and is not
                               required to be reported to the Office of Inspections.
                               However, in the letter of warning, the deciding official
                               indicated this incident, a break-in to a law enforcement
                               vehicle, occurred while the inspector left his unlocked
                               vehicle parked at his son’s house while tending to personal
                               business. Without the details of an investigative
                               memorandum, as would be prepared if this incident were
                               investigated as an internal investigation, it is unclear
                               whether or not the postal inspector misused his official law
                               enforcement vehicle, a violation of the Code of Conduct. If
                               this incident had involved the misuse of a law enforcement
                               vehicle, the discipline given appears relatively minor,
                               especially if the misuse was judged to be willful, which
                               carries a minimum statutory 30-day suspension.




                                                  7
Postal Inspection Service Disciplinary Process                                                 OV-AR-00-004
 for Nonbargaining Employees



                                Although internal investigations are not always required to
                                be initiated for potential violations of the Code of Conduct,7
                                the consistent initiation of internal investigations for
                                potentially serious violations would enhance the
                                effectiveness of the disciplinary process. Specifically,
                                internal investigations have more centralized control,
                                documentation standards, and executive-level review when
                                compared to division level investigations. In addition,
                                Human Resources officials stated that their review and
                                quality control functions for proposed disciplinary actions
                                are enhanced by having internal investigative
                                memorandums to form an objective opinion of the facts.
                                Investigative memorandums are normally not prepared for
                                division level investigations for Human Resource and other
                                management officials to review.

Oversight of Internal           Although oversight provided by headquarters management
Investigations                  helped ensure the timely disposition of disciplinary
Assigned to Field               measures, we could not document the extent of Office of
Inspectors                      Inspections oversight of internal investigations assigned to
                                field inspectors. Case files often identified that Office of
                                Inspections personnel contacted the field investigating
                                inspector. However, the case files provided little or no
                                indication of the nature of the contacts or relevant
                                information obtained from the investigating field inspector to
                                assist in case oversight.

                                Requiring Office of Inspections personnel to consistently
                                and thoroughly document case oversight in case files would
                                help ensure that adequate oversight of field investigations is
                                provided and recorded for subsequent review. In addition,
                                consistent and thorough documentation of case oversight
                                would help ensure more thorough investigations to assist
                                the deciding official on the appropriate level of disciplinary
                                action, if any, required based on the circumstances.

Summary	                        There is an increased risk that the Inspection Service
                                disciplinary process may be perceived as not being
                                independent, fair, and consistently administered.
                                Specifically, internally conducted investigations, the failure

7
  Internal investigations are required to be conducted for potential violations of the Code of Conduct that
relate to the loss of evidence, funds, and firearms.




                                                      8
Postal Inspection Service Disciplinary Process                                       OV-AR-00-004
 for Nonbargaining Employees


                               to report potential violations, and a lack of documented
                               oversight may give the appearance of impropriety to
                               persons within and outside of the Inspection Service and
                               reduce confidence in the disciplinary process.
                               Independence, fairness, and consistency should be of
                               paramount consideration in any disciplinary process. By
                               addressing the issues identified in this report, Inspection
                               Service management may gain a valuable opportunity to
                               increase confidence and prevent negative perceptions
                               related to the Inspection Service disciplinary process.

Recommendation                 We offer the following recommendations.

                               The chief postal inspector should:

                               1. 	 To the maximum extent possible, direct the Office of
                                    Inspections to conduct all internal investigations.
                                    During peak workload periods, direct the Office of
                                    Inspections to assign internal investigations involving
                                    less serious offenses to field inspectors from different
                                    divisions than the subjects being investigated.

Management’s                   The deputy chief inspector, Professional Standards and
Comments                       Resource Development, stated that, beginning in FY 2001,
                               the Office of Inspections will conduct all serious internal
                               investigations for nonbargaining employees. Further, less
                               serious offenses by nonbargaining employees may be
                               assigned during peak workload periods to officials from
                               divisions other than the division where the subject is
                               domiciled.

Recommendation                 2. 	 Establish management controls to ensure that all
                                    potential violations of the Inspection Service Code of
                                    Conduct are reported to the Office of Inspections as
                                    required.


Management’s 	                 The deputy chief inspector stated that the Chief Postal
Comments 	                     Inspector would issue instructions to all managers
                               reinforcing the importance of the Code of Conduct and the
                               obligation to promptly report all potential violations to the
                               Office of Inspections.




                                                 9
Postal Inspection Service Disciplinary Process                                       OV-AR-00-004
 for Nonbargaining Employees



Recommendation                 3. 	 Direct the Office of Inspections to conduct internal
                                    investigations of all allegations of potentially serious
                                    violations of the Inspection Service Code of Conduct.

Management’s 	                 The deputy chief inspector stated that the chief postal
Comments 	                     inspector would issue instructions requiring the Office of
                               Inspections to conduct internal investigations of all
                               allegations of potentially serious violations of the Inspection
                               Service Code of Conduct.

Recommendation                 4. 	 Direct the Office of Inspections to maintain active
                                    oversight of internal investigations assigned to field
                                    inspectors. Direct the Office of Inspections to
                                    consistently and thoroughly document oversight of
                                    internal investigations assigned to field inspectors in
                                    case files.

Management’s                   The deputy chief inspector stated that the Inspection
Comments                       Service implemented a new process assigning Office of
                               Inspections personnel as coordinators of internal
                               investigations conducted by the field. Coordinators are
                               responsible for ensuring all case management criteria are
                               followed, all reporting requirements are met, and the
                               investigative report thoroughly addresses the allegations.
                               Additionally, the Office of Inspections will facilitate the
                               issuance of a policy update clarifying their oversight of
                               internal investigations assigned to the field.

Evaluation of                  Management’s comments are responsive to our
Management’s                   recommendation and the actions, taken or planned, should
Comments                       correct the issues identified in this report.




                                                 10
Postal Inspection Service Disciplinary Process                                   OV-AR-00-004
 for Nonbargaining Employees



Additional                     The deputy chief inspector provided additional comments to
Management                     the report. Specifically, the deputy chief inspector stated
Comments                       that there was no correlation between the audit objectives
                               and a review of the internal investigative process. The
                               deputy chief inspector further noted that internal
                               investigations are not a part of the disciplinary process
                               outlined in the Employee Labor Manual and Inspection
                               Service Manual.

Evaluation of                  We disagree that there is not a correlation between the
Management’s                   audit objectives and a review of the internal investigative
Comments                       process. As identified in the report, our audit objectives
                               were formulated to address observations contained in the
                               OIG Management Advisory Report, Handling of Internal
                               Affairs Cases, Report Number OV-MA-98-001, March 1998.
                               This report identified several deficiencies in the internal
                               investigative process.

                               We further disagree that internal investigations are not a
                               part of the disciplinary process and, therefore, should not
                               have been included in the scope of the audit. We agree
                               that the Employee Labor Manual and Inspection Service
                               Manual referenced by management identify disciplinary
                               actions rather than the internal investigative process.
                               However, the disciplinary process identified in the manuals
                               would not exist without an allegation and subsequent
                               internal investigation or fact-finding of that allegation.
                               Further, we identified to management throughout the audit
                               that the scope of our review was the internal investigative
                               process rather than the adjudication of disciplinary
                               measures. The audit scope, as well as the objectives, were
                               formulated to address observations contained in the OIG
                               Management Advisory Report Number OV-MA-98-001.




                                                 11
Postal Inspection Service Disciplinary Process                                                                            OV-AR-00-004
 for Nonbargaining Employees


                                                        APPENDIX A
           INTERNAL INVESTIGATIONS CLOSED DURING FY 1999
             BY TYPE OF ALLEGATION AND FINAL DISPOSITION

Internal Investigations by Type of Allegation

                                                       Inspector
                                                misconduct, loss
                                                  of property, 4:
                                                            13%                 Inspector
                                                                                misconduct
                                                                                alcohol/controlled
                                                                                substances,2: 7%

                        Inspector
                      misconduct,
                        ethics- 8:                                                         Inspector
                             27%                                                           misconduct -
                                                                                           firearms, 2: 7%

                                                                                            Inspector
                                                                                            misconduct,
                                                                                            expenses, 1: 3%

                                                                                          Support personnel
                                                                                          misconduct, 3:
                                                                                          10%




                                                                                   Postal Police
                                          Inspector                                Officer
                                      misconduct,                                  (supervisor)
                                 miscellaneous , 7:                                misconduct, 3:
                                              23%                                  10%




Internal Investigations by Final Disposition
                                              Letters of Warning
                                               in lieu of a 14 day
                                                  suspension, 4:-                 Letters of Warning
                                                              11%                 in lieu of a 7 day
                                                                                  suspension, 4:
                                                                                  11%
                         Counselling, 2: 6%

                                                                                                     Letters of Warning
                                                                                                     (not in lieu of
                                                                                                     suspension), 5:
                                                                                                     14%




                              No Action
                         (exonerated), 9:                                                                    Removals, 3: 8%
                                    28%




                                                                                               Suspensions , 3:
                                                                                               8%



                                                                          Reduction in
                                                                          grade, 5: 14%




                                                                     12
Postal Inspection Service Disciplinary Process         OV-AR-00-004
 for Nonbargaining Employees


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                 13
Postal Inspection Service Disciplinary Process        OV-AR-00-004
 for Nonbargaining Employees




                                                 14
